No. 19-863

lNTHE

~upreme Qtourt of tbe fflniteb §s>tates
AGUSTO NIZ-CHAYEZ,

Petitioner,
V.

WILLIAM P. BARR, ATTORNEY G ENERAL,

Respondent.

CERTIFICATE OF COMPLIANCE
I hereby certify that I am a member in good standing of the bar ofthis Court and that the Brief
of Thirty-'Three Former Immigration Judges and Members of the B oard of lmmigration Appeals as
Amici Cwiae in Support of Petitioner contains 6,797 words and complies with the word limitation
established by Rule 33.l(g)(xii) of the Rules of this Court.
Dated: August 13, 2020

